Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

September 16, 2019

BY FIRST-CLASS MAIL
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Jerud Butler v. Bd. of County Commissioners for San Miguel County, et al.,
No. 19-285

Dear Mr. Harris:
I represent Petitioner Jerud Butler in the above-captioned case. Please accept this
letter as giving Petitioner’s blanket consent for the filing of amicus briefs in support
of either or neither party.
Thank you for your kind assistance.
Sincerely,
Neal Kumar Katyal
Counsel for Petitioner

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Caracas Colorado Springs Denver
Dubai Dusseldorf Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami
Milan Minneapolis Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rio de Janeiro Rome San Francisco São Paulo Shanghai
Silicon Valley Singapore Sydney Tokyo Ulaanbaatar Warsaw Washington DC Associated offices: Budapest Jakarta Shanghai FTZ Zagreb. Business Service
Centers: Johannesburg Louisville. For more information see www.hoganlovells.com

